ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
600 WEST BROADWAY, SUITE 1800
SAN DIEGO, CA 92101
P.O. BOX 85266
SAN DIEGO, CA 92186-5266

Public: (619) 738-9000
Telephone: (619) 738-9025
Facsimile: (619) 645-2044
E-Mail: Matthew.Mulford@doj.ca.gov

September 2, 2021
VIA ELECTRONIC FILING SYSTEM
Mr. Scott S. Harris
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Ros v. California
Case No. 20-8363 – Request for Extension of Time

Dear Mr. Harris:
The petition for writ of certiorari in this case was filed on June 10, 2021. The response to
the petition is currently due on September 15, 2021.
Pursuant to Rule 30.4, respondent State of California respectfully requests that the time to
respond to the petition be extended by thirty days, up to and including October 15, 2021. An
extension of time would better enable preparation of a response that would be most helpful to the
Court
Sincerely,
/s Matthew C. Mulford
MATTHEW C. MULFORD
Deputy Attorney General
For

cc:

John Leis Staley
Counsel for Petitioner

MCM:AWS
SD2021801694
83026245.docx

ROB BONTA
Attorney General

